UNITED STATES OF AI\,IERIEA,
Respond.ent,

against-

NAQUAN REYES,

:

Petitioner.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

By:

ANDREW H. FREIFELD, ESQ.
Post Office Box 3196
New York, New York 10008
Tel: 917-553-6030

Attorney for Petitioner
Naquan Reyes

.t

$

*F

ISSUES PRESENTED

"!

I.

Whether the Court ofAppeals erred in rejecting Reyes's contention that the
sentence was procedurally unreasonable based on the district court's failure
to comply with 18 USC $ 3553(a)?

II.

Whether the Court of Appeals erred in rejecting Reyes's contention that the
sentence was procedurally unreasonablebased on the district court's failure
to comply with 18 USC S 3553(c)?

.,

j,

$.

{

tr"

TABLE OF CONTENTS
Page

previous page

ISSUES PRESENTED.

INTRODUCTION.

1

COMPLIANCE WITH CERTAIN
SUPREME COURT RULES.
STATEMENT OF FACTS.
Supreme Court Rule 10.

ARGUMENT.
CONCLUSION.

13

TABLE OF AUTHORITIES

3553(a)
18 USC S 3553(c)

passim

18 USC S

possim

Chauez-Mesa u. (Jnited, States,138 S. Ct 1959

Riiau. United States,55lU.S.

(2018)

338(2007).... ......
APPENDIX

A
B
C
D
E
F

'

I
8

a'

Document

Date

Court of Appeals Jud.gment
Sentencing Transcript
District Court Judgment
Court of Appeals Mandate
Statutes
Order Appointing Counsel Under
The Criminal Justice Act

July 8,

2O2O

October 24,2OL8
November 8, 2018
July 29, 2020

December 2L,2OL8

INTRODUCTION
The undersigned is counsel to petitioner Naquan Reyes, appointed by order
entered December 2L, 2018, by the United States Court of Appeals for the Second

Circuit, pursuant to the Criminal Justice Act, under docket # 18-3695. Reyes hereby
petitions the Supreme Court of the United States for a writ of certiorari to the Second

Circuit, with respect to its summary order dated JuIy 8, 2020, reported at United
States u. Naquan Reyes,819 Fed. App'l

4l

(2d Cir. 2020) (Appendix hereto, Exhibit

A), which affirmed a judgment of conviction and sentence, including imprisonment
for life, entered against petitioner in the United States District Court for the Eastern

District of New York on November 8, 2018. The foregoing table of contents includes
a list of the documents that make up the appendix attached hereto.

COMPLIANCE WITH CERTAIN SUPREME COURT RULES
Rule 14.1ft): The caption of this'case contains the names of all the parties to
thd proceeding in the court whose judgment is sought to be reviewed.. The nisi prius

court was the United States District Court for the Eastern District of New York,
where the action was maintained under the caption United States u. Naquan Reyes,
Docket

# l4-cr-227. A judgment

of conviction and sentence entered there August 19,

2016. By summary order of the United States Court ofAppeals for the Second Circuit,
entered. January 2,2018, under

United Stattes u. Naquan

Reyes,

Docket

#

t6-2g36,

the judgment was reversed and the matter remanded for resentencing. The district
entered a second judgment of conviction and sentence on November 8, 2018 under the

original caption and docket number. The Second Circuit affirmed by summary order

entered July 8, 2020 under the caption United States u. Naquan, Reyes, Docket #

t8-

3695.

Rule 14.1(d): The summary order entered in the first appeal on the case is
reported at (Jnited, States u. Naquant Reyes,718 F. App'x 56 (2d Cir. 2018) The
summary order entered in the second appeal of the case, the review of which we now
seek, is reporte d

at United States u. Naquan Reyes,819 Fed. App'* 4L (2d Cfu. 2020).

RuIe 14.1(e): The d.ate of the judgment about which we seek review is July 8,

2020. Section 1254(l) of Title 28 of the United States Code confers jurisdiction on
this Court to review the order for which we seek review on a writ of certiorari.
Rule 14.1(fl: The provisions of law involved in this case are sections 3553(a)
and 3553(c) of Title 18 of the United States Code. The provisions of the statutes are
set out in the Appendix at Exhibit D.

Rule 14.1(e): Jurisdiction in the.Court of Appeals for the order for which we
see_k
.\

a writ of certiorari vested under 23 USC S 1291.

STATEMENT OF FACTq
The case commenced

April L6,2014 in the United States District Court for the

Eastern District of New York. On Febru ary 2,2}ll,Reyes pled guilty to Bank Fraud.
Conspiracy (18 USC S 1349) ("Count One") and to Obstruction of Justice Murder [18

USC $ 1512(a)(1)(C)l [second-degree murder under 13 USC S 1111(a)] ('Count
Seven"). At the plea hearing, Reyes admits that while working at banks in the County

of Kings (Brooklyn) and Oounty of Queens, State of New York,
knowingly provided fraudulent checks, generated by

2008-2OL4, he

a co-conspirator, ,:

co-

conspirator account holders, who deposited them and then withdrew funds that
posted before the bank realized the fraud, which they shared

with Reyes. Reyes

admits further that July 22-24, 20LO, Nicole Thompson, one of the co-conspirators,
was murdered, an act knowingly paid for by he and co-conspirators in the fraud, after

they learned that Thompson was cooperating with authorities investigating the
fraud.
Conviction under Count One subjected Reyes to sentencing to any term "not
more than 30 years". 18 USC

SS

1344, 1349. Conviction under Count Seven subjected

Reyes to a sentence of "any term of years or for

life".

18 USC S USC S 1111(b),

1512(a)(3)(A). The parties entered into a plea agreement on the same date as the
plea proceeding: Reyes waives his right to appeal any sentence of 360 months or less,
and the parties stipulate that his Guidelines' sentencing range is 360 months to life.
The Pre-sentence report ( "PSRi'), filed July 28,2OL6, states as to the offender:
Reyes is 30 years old, an African-American male, raised

in Brooklyn. Except f9r a

bank fraud arrest, dismissed in 2008, this arrest is his first. And as to the offense
the PSR states: Nicole Thompson was arrested for check fraud in Bronx County, New

York, on July 16, 2010. Promising continued cooperation with law enforcement,
Thompson identified Reyes as a co-conspirator. Her body was recovered from a
dumpster in Landover, MaryIand on or about

J:uLy

24,2020. Investigation showed

that she's been strangled to death in Brooklyn on July 22,2010.
The district court (Hon. Sandra L. Townes) received evidence at sentencing on

July 28,'2016; and then'.relied on Reyes's pre-arrest recorded admission to find that

3

he'd just testified falsely that he was not present at the murder. (The government
claimed has always claimed only that he was nearby, and Judge Townes did not frnd

that he strangled Thompson). The court found that the conduct warranted
withholding the "additional" Ievel credit for acceptance of responsibility contemplated

by USSG S 3E1.1(b), and awarding only the two levels credit contemplated by

$

3E1.1(a). The finding is the difference between the parties' stipulation that Reyes's

Guidelines range

is 360 months-to-life, and the court's determination that his

Guidelines'range is life imprisonment. The court imposed sentence: imprisonment
for 360 months on Count One, and imprisonment for life on Count Seven.
By summary order dated January 2,2018, Uruited States u. Naquan Reyes,7t8
F. App'x 56 (2d Cir. 2018), the United States Court of Appeals for the Second Circuit

found error in the sentencing court's conclusion that the record permitted denial of
the "additional" credit for acceptance of responsibility [USSG

S

381.1(b)], while also

awarding two levels credit [USSG 3E1.1(a)], vacated the sentence, and remanded for
resentencing.

Following remand, sentence was imposed October 24,2018 (Hon. Sterling
Johnson,

Jr).1 (The sentencing transcript is Exhibit B to the Appendix

attached

hereto). Judge Johnson awarded Reyes three-levels for acceptance of responsibility,
and thus found that Reyes's Guidelines'range is 360 months to

life.

Judge Johnson

imposed the same sentence as Judge Townes did, imprisonment for 360 months and

life, respectively, on Counts One and Seven. Neither the government nor the Second
1 Judge Townes passed away February 8, 2018.
http s ://www. fi c. gov/history/j ud ges/townes: sandra-1.

Circuit disagreed with us that only the following brief excerpt might conceivably
constitute compliance with 18 USC $$ 3553(a) and 3553(c) at sentencing (and

it

doesn't):

THE COURT:

It's agreed this is a particularly heinous crime. It wasn't a knife.
It wasn't a gun. It was personal, the deceased was strangled.

*****
3553(a) says that I must impose a sentence that is
sufficient but not gpeater than necessary to comply with
the purposes of the statute. I must take into the
consideration the nature and circumstances of the offense.
The offense, as I said before, was personal and horrendous.
I must take into consideration the seriousness to promote
a respect for the law.

I

listened to the argument of counsel. I read the
submissions and I think that a sentence that is sufficient
but not greater than necessary is the following.
I'm going to sentence the defendant to life in prison. I'm
going to sentence to, how many counts is it?
[AUSA]:

THE COURT:

Two counts....
$100 special assessment on each count. And there will be
- make it. five years supervised
release.

no supervised release
IAUSAI:

THE

COURT:

Yes, Judge.

I

assume you're imposing life on the
obstruction count, and 30 years which is the statutory
maximum?
Same thing that Judge Townes said....

(Appendix hereto, Exhibit B, pp. 17-19) The judgment of conviction and sentence,
entered Novembe r 8,2020,is attached as Exhibit C to the Appendix hereto.

Reyes appealed. The undersigned's fi.rst association

with the case was upon

the December 21,2018 entry by the Second Circuit of an order appointing him as CJA

counsel. (Appendix hereto, Exhibit F) We urged in our brief that the sentence was
procedurally unreasonable because the above-quoted excerpt did not comply with
either 18 USC $ 3553(a) or 18 USC S 3553(c). As Reyes hadn't lodged these challenges

at sentencing, we acknowledged that review is for plain error. The Second Circuit
affirmed in a summary order entered..July

8,

2O2O

(Appendix hereto, Exhibit A),

reported at United States u. Naquan Reyes,819 Fed. App'x

4l (2d Cfu. 2020). The

mandate entered July 29, 2020 (Appendix hereto, Exhibit C) This petition asks this
Court to review that judgment.2

Supreme Court Rule 10

The petition should be granted in part because the Second Circuit's order of
affirmance sanctioned such a great departure from the accepted and usual course of
seritencing as' conducted by the district court, that an exercise by this court of its
supervisory power is warranted. Moreover, courts of appeals and district courts are

everyday confronted with the issues present by the

petition.

(Indeed, these

sentencing issues are about as bottom-Iine as one could conjure up.) And, as we show,

this Court's standards on these issues are intangible and warrant teeth. Also, this

2 In its brief at the Second Circuit, the government argued that the "statement of
Reasons" form, filed by the district court under seal post-sentencing, acts to
supplement the sentencing transcript, and to render the sentencing compliant with
S 3533(c). We'replied that the Statement contained misstatements of material fact,
and omitted material facts. The Second Circuit did not rely on the Statement of
Reasons in finding the sentence not procedurally unreasonable.
6

record suits such purpose perfectly, given (i) the utter absence of reasoning that the

district court set out at sentencing, and (ii) the imposition of a non-mandatory life
sentence, where

the Guidelines' range too allowed a sentence less other than

imprisonment for life.
Section 3553(a) of Title 18 of the United States Code, lists the factors that a

district court must consider "in determining the particular sentence to be imposed",
and directs that the sentence imposed should. be "not greater than necessary" to
comply with the purposes of sentencing

(S

3553(a) is set out in its entirety at Appendix

hereto, Exhibit D, pp. 1-2).
Section 3553(c) of Title 18, United States Code, provides in pertinent part:

"The court, at the time of sentencing, shall state in open court the
reasons for its imposition of the particular sentence, and, if the
sentence-

"(1) is of the kind, and within the range, described in subsection
(a)(a), and that range exceeds 24 months, the reason for imposing
a sentence at a particular point within the range;"
(emphasis added). (S 3553(c) is set out in its entirety at Appendix hereto, Exhibit D,

p. 3)

A district court's failure to consider the
adequately explain the reasons for

S 3553(a) factors, and

its chosen

its failure to

sentence under S 3553(c), each

constitute "significant procedural error" warranting resentencing anew. Gall

u.

United States,552 U.S. 38, 51 (2007).
On their face, $ 3553(a) and 3553(c) show substantial overlap: the sentencing
court .is required by the, former to base

its sentence on certain factors, and by the

latter to articulate the reasons for the sentence. Appellate decisions show that, as
here, appellants urging error as to one, invariably urge error as to the other.

lnRitau. United States,551U.S.

33S (2007), the Court was asked to determine

it

state its

reasons for imposing the particular sentence. This Court observed

that the

whether the district court's complied with $ 3553(c)'s requirement that

requirement:

reflects sound judicial practice. Judicial decisions are reasoned
decisions. Confidence in a judgd's use of reason underlies the public's
trust in the judicial institution. A public statement of those reasons
helps provide the public with the assurance that creates that trust.

That said, we cannot read the statute (or our precedent) as insisting
upon a full opinion in every case. The appropriateness of brevity or
length, conciseness or detail, when to write, what to say, depends upon
circumstances....

In the [sentencing] context, a statement of reasons is important. The

"

sentencing judge should set forth enough to Batisfiz the appellate court
that he has considered the parties' arguments and has a reasoned basis
for exercising his own legal decisionmaking authority. Nonetheless,
when 4 judge decides simply to apply the Guidelines to a particular case,
doing so will not necessarily require lengthy explanation.

Circumstances may well make clear that the judge rests his decision
upon the Commission's own reasoning that the Guidelines sentence is a
proper sentence (in terms of $ 3553(a) and other congressional
mandates) in the typical case, and that the judge has found that the case
before him is typical.

(Id at 356-67).
On its face the "d.epends on the circumstances test" must be the amorphous
legal standard ever. (Lawyers chuckle when they hear lawyers, themselves included,
a request for advice with "it depends" -- as they are always wont to do). It
lo
offers no guidance. One attempt the passage makes to provide some guidance is the

resfold

"principle" that a district court is empowered a deem a case "typical"
warrants less discussion.

See also Chauez-Mesa u.

-

which

United States,138 S. Ct 1959, L964

(2018) ('[w]hen a judge applies a sentence within the Guidelines range, he or she
often does not need to provid.e a lengthy explanation").

A decision by this court here would serve to illustrate that no case where a non-

mandatory sentence of life is imposed (and the Guidelines range also authorizes a
sentence an immeasurably lower sentence as 360 months inarguably is) may be
deemed "typical" for purposes of assessing the district court's compliance with s$
3553(a) and 3553(c). The Court should grant the instant petition.

ARGUMENT

It

appears that not unlike Rear Admiral Farragut at the Battle of Mobile Bay

(1864), who said, basically, "damn the torpedoes ...

full

speed ahead", the district

court felt that deference to sentencing proprieties and the requirements of Congress

was unnecessary, as the court forged forward inexorably to ensure that Reyes
received the same life sentence imposed previously by

lis

Honor's colleague.s

As to proprieties, the district court stated. the bases in the record for its
sentence: "I listened to the argument of counsel.

I read the submissions". But the

conspicuous omissions in this list of two was not the only matter of record to which
we pointed below to argue that, upon imposing sentence, Judge Johnson had not read

(i) the PSR, (ii) the extended sentencing proceeding before Judge Townes (where the

3 As noted, though, Judge Townes assumed that Reyes's Guidelines' range was life
imprisonment, whereas Judge Johnson contemplated a Guidelines' range of 360
months-to-Iife.

court received evidence, including Reyes's testimony, and made extensive findings of
fact), (iii) the Second Circuit's 2018 summary order vacating the sentence imposed by
Judge Townes, and (iv) the parties'written submissions (notwithstanding the court's

assertion to the contrary as to the parties'written submission). To be sure, the law
does not require a sentencing court to have read any of it, but such proprieties should.

and do count, a lot, especially when a sentence of life is imposed and available
sentences range from zero-to-life
As to the requirement that the sentencing court consider the sentencing factors

listed at 18 USC S 3553(a), the district court identified only (i) "the nature and
circumstances of the offense", and (ii) "the seriousness to promote a respect for the

law". The court thus cites only two of seven factors, reciting them only, and none of
the mitigating ones. And as to the second factor cited by the court, "the seriousness
to promote a respect for the law",

it is misstatement

of the statute, an amalgamation

of two
.\, factors: the need for the imposed sentence to "reflect the seriousness of the
offense" and to "promote respect for the law".

As to the requirements of $ 3553(c) and (c)(1) tliat the sentencing court state
(i) the reason for the imposition of the "particular sentence", and (ii) the reason why

it

chose the

"particular point" within a defendant's Guidelines'range where the range

exceeds 24 months, respectively, the

district court never addressed. the latter. As to

the former, the sum and substance of aII of Judge Johnson's statement of reasons is:

(i) murder by strangulation is worse than murder by knife or gun because it is less
impersonal; (i) disciplinary action against Reyes in prison undermines his claims of

10

rehabilitation; (iii) the offense was "personal" "heinous" and "horrendous", and (iv)
"the seriousness to promote respect for the law".
Once these considerations are broken down, the Court's assertion

that murder

by strangulation is more "heinous" than murder by gun or knife can't sit well with
loved ones of those murdered as innocent bystanders to a shooting, or as victims of
mass shootings, or those murdered on September 11, 2001. Moreover, while Judge
Johnson may be accurate that murder by strangulation is more "personal" than the

murder of a stranger from far away, the "personal" nature of a murder, as Judge
Johnson considered that term, is not a cognizable $ 3553(a) factor.

Moreover, Reyes's sentencing memorandum set out many mitigating factors

weighing against imposition of the maximum sentence: (i) his Guidelines range is
based on double-counting -- an obstruction of justice enhancement stacked onto an

obstruction of justice conviction, (ii)

.his

extraord.inary efforts

at rehabilitation

(ingluding 53 gertificates awarded in custody), (iii) the effect of substantial trauma on
his development, including lead poisoning as a child, (iv) the low levels of recidivism
associated with persons released from prison at near-afie 60 as Reyes would be if the

Court imposes a sentence of 360 months, and (v) to avoid disparity in sentencing,
pointing to a United States Sentencing Commission study showing that the "medium
sentence imposed nationwide for a conviction of murder" is a term.of imprisonment
of.277

months. But the district court addressed only

one, the claim of rehabilitation,

pointing to four alleged minor prison infractions, three that pre-dated sentencing by
Judge Townes, with Reyes challenging the accuracy of the fourth. The district court's

11

failure to address other mitigating circumstances contributes to making this record
scanty, as does the one factor addressed: as counsel stated, she had no way to
challenge the accuracy of the allegations regarding the incidents.
The district court's naked references here to two of the $ 3553(a)'s subdivisions
do not amount to "reasons" for the sentence as S 3553(c) requires, especially in

light

of the severity of the life sentence imposed. Nor do such comments, with Reyes's

Guidelines sentencing range set. at 360 months

to life, satisfii the additional

requirement und.er subd.ivision (c)(1) that the Court provid.e the "reason" for choosing
the "point" at the top in the range.
As Rito shows, where the district court has discretion as to what sentence to
impose, the length and breadth of its stated reasons for the sentence imposed must

be directly proportional to the severity of the sentence.

It

follows that no

discretionary sentence requires a greater explanation than one of imprisonment for
life.!'

The meagerness of the Judge Johnson's statement of reasons renders this
sentence unamendable to appellate review and, similarly, leaves the public guessing

as to why his Honor determined that the maximum sentence alone is "not greater

than necessary" to meet the purposes of sentencing.

t2

:'.':1:-::f;il:ts';:i..!:9

.,,

.:.::.:,!:.:

'.

:''.

:

'
,Fpr,*re russffi&

the petition

Dated:

br a writ

Ostoher 6,

NewYorh

CIf

afirl

.

-l

e{}}s€fJ'*r*1fi

i[

fu ressoftd,ffiS,***'g

@rtiffiari ebuld"begraffid.

m

!flbwYd
nespestfulk submftted,

..

t-,mm'

1:,

,i:

Attryfrr

Petitioner
NaqpanBeyes

:t&

i*,..

1
!r.:,

s

"..:i

*r

*
t{
v

-x,s

,t

':;

rary',

,

